           U.S. DEPARTMENT OF THE INTERIOR
             OFFICE OF INSPECTOR GENERAL




PROGRAM ASSESSMENT RATING TOOL
     PROGRESS EVALUATION

   BUREAU OF RECLAMATION
 RURAL WATER SUPPLY PROJECTS




 ER-RR-BOR-0002-2008      FEBRUARY 2009
                            BUREAU OF RECLAMATION
                          RURAL WATER SUPPLY PROJECTS

                                         TABLE OF CONTENTS

Introduction

         Why We Did This Progress Evaluation .......................................................... 1
         Objectives and Methodology .......................................................................... 1
         How We Structured This Report .................................................................... 2
         Overview ....................................................................................................... 2
         OMB’s 2002 PART Assessment .................................................................... 4

OIG’s Observations and Suggestions

         Progress on OMB’s:
            First Program Improvement Plan Action ................................................... 5
            Second Program Improvement Plan Action .............................................. 6
            Third Program Improvement Plan Action ................................................. 8

         Additional Opportunities for Improvement .................................................. 10

Summary .................................................................................................................. 15

Appendixes

         Appendix A: History and Use of the PART............................................... A-1
         Appendix B: Rural Water Supply Program Operations ............................. B-1
         Appendix C: PART Questions That Elicited a “No” or “Small
           Extent” Answer in 2002 ......................................................................... C-1
         Appendix D: Status of Rural Water Supply Projects ................................. D-1
         Appendix E: Proposed Rural Water Supply Performance Measures......... E-1
         Appendix F: FY 2009 Budget Request ...................................................... F-1
                                                ON THE COVER

Photos of rural water supply project construction sites managed by the Bureau of Reclamation in
the State of South Dakota. The Bureau also manages rural water supply projects in Montana,
North Dakota, and New Mexico.
                                                                        Source: OIG Staff
          ABBREVIATIONS

BIA    Bureau of Indian Affairs
CFS    Cubic Feet per Second
DOI    Department of the Interior
EPA    Environmental Protection Agency
FY     Fiscal Year
GAO    Government Accountability Office
GPRA   Government and Performance Results Act of 1993
IHS    Indian Health Services
MR&I   Municipal, Rural, and Industrial
OIG    Office of Inspector General
OMB    Office of Management and Budget
O&M    Operations and Maintenance
OM&R   Operations, Maintenance, and Replacement
PART   Program Assessment Rating Tool
PMB    Office of Policy, Management, and Budget
PPP    Office of Planning and Performance Management
RND    Results Not Demonstrated
RUS    Rural Utility Service
WEB    Walworth, Edmunds, and Brown Counties’ Project
WRLJ   West River/Lyman Jones
                                      INTRODUCTION

WHY WE DID THIS PROGRESS EVALUATION

D    epartment officials asked the OIG to evaluate the
     progress made by projects designated Results
Not Demonstrated (RND) by the Office of
                                                              WHAT IS THE PART?
Management and Budget (OMB). OMB uses the                      Federal agencies use the
Program Assessment Rating Tool (PART) to make
                                                             Program Assessment Rating
these designations.
                                                               Tool (PART), a standard
                                                               questionnaire, to submit
In our discussions with officials in DOI’s Office of
                                                                information on federal
Budget and Office of Planning and Performance
                                                               programs to the Office of
Management, we considered each DOI program rated
                                                               Management and Budget
by OMB as RND, as well as a number of other
                                                           (OMB). OMB examiners assess
factors, such as each program’s budget and how long
                                                           programs based on responses to
a given program has been in RND status. Based on
                                                            YES/NO questions in the areas
this analysis, we selected Reclamation’s rural water
                                                           of program purpose and design,
supply projects for this progress evaluation.
                                                             strategic planning, program
                                                              management, and — most
OBJECTIVES AND METHODOLOGY                                     importantly — program
                                                                        results.
Our objectives were to determine the progress made
by Reclamation toward implementing OMB’s                    OMB uses the information to
recommendations and to provide suggestions to                    determine program
officials to ensure success of the existing projects, as     effectiveness, recommend
well as that of the new Program.                              improvements for rated
                                                            programs, and follow up on
To meet our objectives, we interviewed Reclamation              those improvements.
and DOI officials and the OMB examiner responsible
for assessing the existing rural water supply projects.
                                                           The ExpectMore.gov Web site
We reviewed and analyzed documentation and
                                                            publishes PART results. See
reviewed performance measurement and program
                                                                Appendix A for more
evaluation literature as well as applicable laws and
                                                           information on the history and
regulations to include Reclamation’s interim final rule
                                                                  use of the PART.
(73 FR 67778 (November 17, 2008)) establishing
operating criteria for the new program, and planning
processes. We visited one location, the Mni Wiconi Rural Water Project in South Dakota.
We chose this site because the Project was actively undergoing construction, included the
involvement of a variety of sponsors, encompassed a large area, and was allotted funds in
fiscal year (FY) 2008.

We conducted our evaluation in accordance with the “Quality Standards for Inspections”
established by the President’s Council on Integrity and Efficiency. We base our suggestions
presented in this report on OMB’s 2008 PART guidance.

                                                                                              -1-
HOW WE STRUCTURED THIS REPORT
Following an overview that includes Reclamation’s rural water supply history and
responsibilities, we summarize OMB’s 2002 PART assessment. We then address areas of
concern that we and OMB have identified in Reclamation’s existing rural water supply
projects, as well as areas that offer additional opportunities for improvement, and provide
suggestions that should help both the existing projects and the new Program succeed.

OVERVIEW

History of Rural Water Supply Management
Reclamation has a century of experience in the development and management of water
delivery systems in the West and significant experience in developing rural water supply
projects. Reclamation manages numerous municipal and industrial water projects that
provide irrigation, flood control, power, and
recreational opportunities to the 17 western States1,
Indian Tribes, and others to balance the competing                Reclamation
needs for limited water resources.                             Mission Statement
Reclamation is the Nation’s largest water                           The Bureau of Reclamation
wholesaler and second largest producer of                         mission is to manage, develop,
hydroelectric power in the western United States. It               and protect water and related
supplies water to more than 31 million people and                resources in an environmentally
provides one out of five western farmers                         and economically sound manner
(approximately 140,000) with irrigation water for                 in the interest of the American
10 million acres of farmland. It also runs 58 power                            public.
plants that produce enough electricity to serve 6
million homes, provides more than 40 billion                            Source: Reclamation
kilowatt hours annually, and generates nearly a
billion dollars in power revenues.

Rural Water Supply Projects and Program

Current data indicate that millions of Americans in rural areas2 still live without a safe and
reliable water supply. To help provide safe drinking water, a number of Federal agencies,
such as the Department of Agriculture’s Rural Utility Services and the Department of
Commerce’s Economic Development Administration, provide funding for large and complex
rural water programs3. Because of Reclamation’s experience and technical capabilities in the
planning, design, and construction of rural water supply projects, the Congress chose


1
  The western States are Arizona, California, Colorado, Idaho, Kansas, Montana, Nebraska, Nevada, New
Mexico, North Dakota, Oklahoma, Oregon, South Dakota, Texas, Utah, Washington, and Wyoming.
2
  Rural areas are defined per Public Law Number 109-451 as a community or group of communities, each of
which has a population of not more than 50,000 inhabitants.
3
  Other rural water programs include those funded by the U.S. Army Corps of Engineers.

                                                                                                          -2-
Reclaamation to administer prrojects that do
                                          d not meet the
                                                     t criteria of
                                                                o other depaartments or
agenccies.

Fromm 1980 through 2006, thee
Conggress directed  d Reclamatioon
on ann informal baasis to
underrtake the con nstruction, as
well as
      a the operattions and
mainttenance (O&  &M), of 10
speciific and indep pendently
fundeed rural wateer projects.
Thesee “existing projects”
                   p         are
adminnistered by thet Great
Plainns and Upperr Colorado
regional offices, but
                    b oversighht
respoonsibility hass been
                                           C
                                           Construction of rural water lines in Southh Dakota.
transfferred to thee Bureau’s                          Soource: OIG Sttaff Photo
Policcy, Administrration and
Budgget/Program and Policy Services
                                S       Offfice. Becausse planning and a authorization of exissting
projeects has beenn congressionnally directeed, Reclamattion has not focused
                                                                       f         its efforts
                                                                                     e       on
establishing eligibility criteria for commuunities or forr prioritizingg projects to fund.
Reclaamation thuss had no struuctured progrram for deveeloping or fuunding rural water supplyy
projeects until passsage of the Rural
                                R      Waterr Supply Actt of 2006 (thee Act).

Passaage of the Acct formally instituted
                                 i         thee Rural Wateer Supply Prrogram, speccifying
Reclaamation to develop
                  d         a proocess of selection, constrruction, and O&M of rurral water suppply
projeects. Rather than compleeting projectts itself, Recllamation willl now conduuct appraisall
invesstigations and d feasibility studies (or ensure
                                              e      that such
                                                          s     studies are conducteed by non-
federral entities) and
                   a recommeend to the Congress propposed projeccts for fundinng. Congresss
must still enact leegislation beefore specificc projects are authorizedd for construction.

                                        Beecause the requirements and  a criteria forf the Progrram
        P.L. 109-451
             1                          cannnot be applied retroactiively, Reclam   mation has had
                                                                                                h to
    RURAL WATER
             A    SUPPLY                conntinue manaaging the proojects startedd before the Act,
                                                                                                 A
        ACT OF
             O 2006                     whhile it concurrrently develloped and im  mplemented
                                        reggulations forr the new Proogram. To address
                                                                                   a        the laatter
  Ennacted Deceember 22, 20006,         ressponsibility, Reclamationn published an interim finalfi
       the Act au
                uthorizes thee          rulle (73 FR 67778) on Novvember 17, 2008.  2     The ruule
   Seecretary of the Interiorr to       (433 CFR 404) became
                                                          b       effeective Decem mber 17, 20008; it
   crreate a ruraal water sup
                            pply        esttablishes opeerating criterria for the Prrogram and
    p
    program    to address rurral        deffines criteriaa governing the
                                                                       t prioritizaation, eligibiility,
  waater needs inn the 17 wesstern      andd evaluationn of appraisall investigatioons and
               Sta
                 ates.                  feaasibility studdies. Under the
                                                                       t new Proggram,
                                        Reeclamation iss to be directtly involved in the plannning
       Source: Reclamation
               R                        andd prioritizingg of rural waater supply projects,
                                                                                   p         therreby
                                        prooviding a higgher level off assurance thhat selected


                                                                                                          -3-
projects are cost-effective and are in the best interest of the U.S. Government.

The process for project selection under the Act
is slated to operate much differently than under           Appraisal Investigation
congressional mandates. See Appendix B for
detailed information on Program operations.           An analysis of domestic, municipal,
To summarize, the Act formally charges                    and industrial water supply
Reclamation with oversight responsibility and         problems, needs, and opportunities
authorizes the Secretary to undertake the              using existing data. It includes a
following activities in implementing the                   preliminary assessment of
Program.                                              alternatives to determine if at least
                                                      one warrants further investigation.
       To investigate opportunities to ensure
       safe and adequate projects for                          Feasibility Study
       domestic, municipal, and industrial use
       in small communities and rural areas          A detailed investigation and analysis
       within the 17 western States.                 of a reasonable range of alternatives
                                                      that includes at least one preferred
       To select projects and plan their design      alternative. Technical and economic
       and construction through the conduct               analyses are also performed.
       of appraisal investigations and
       feasibility studies.                              A study is generally performed
                                                          following the completion and
       To oversee, as appropriate,                      recommendation of an appraisal
       construction of projects that                              investigation.
       Reclamation selects and recommends
       for construction and that the Congress                  Source: Reclamation
       authorizes.

                        OMB’S 2002 PART ASSESSMENT
OMB initially reviewed Reclamation’s rural water supply projects in 2002 prior to the
passage of the Rural Water Supply Act of 2006; they have not undergone review since.
What was a set of projects at the time has now been formalized into a Program that is not yet
fully operational; consequently, no new projects have been submitted or approved for
development under the Act.

The 2002 OMB PART assessment indicated that:
       Reclamation had not established measureable goals or adequately documented
       appraisal and feasibility studies that were prepared and approved prior to the initiation
       of a project. The OMB examiner noted that “the resulting studies seldom undergo
       Reclamation and Administration review, and are not prepared in accordance with
       current Federal planning and engineering standards. As such, these studies provide a
       poor basis for the project planning, design and construction.”


                                                                                                   -4-
       The program purpose is unclear since each project was authorized with its own set of
       goals and was not organized into a coherent plan or under a common goal.
       The projects overlap with other federally funded rural water supply programs such as
       the Department of Agriculture’s Rural Utility Service.
       Tighter controls are needed on project development, which often proceeds with local
       sponsors failing to consider the range of alternatives available to meet water supply
       and water quality challenges.
Further, Reclamation was unable to satisfy OMB requirements for 11 PART questions, most
of which were related to the establishment and utilization of appropriate performance
measures and rated the program as Results Not Demonstrated. We provide a complete listing
in Appendix C of the questions to which Reclamation received a “No” or “Small Extent”
answers.

Based on its observations, OMB recommended that Reclamation work to ensure that
Administration priorities as defined in the Act are adequately addressed; focus budgetary
resources on completing ongoing rural water projects; and include programmatic goals with
measurable objectives and outcomes within DOI’s Strategic Plan. Our assessment of the
Bureau’s progress toward addressing this OMB improvement plan follows.

                   OIG OBSERVATIONS AND SUGGESTIONS
We reviewed the existing projects in 2008 as a follow-up to the 2002 OMB PART review.
Although Reclamation’s existing projects received a Results Not Demonstrated rating from
OMB we observed progress being made toward implementing the actions requested in
OMB’s improvement plan. In short, Reclamation published an interim final rule (73 FR
67778 November 17, 2008) with an effective date of December 17, 2008, that regulates the
Program. Continued effort, however, is needed to develop and implement long-term
outcome performance measures designed to quantitatively assess the effectiveness and
efficiency of the existing projects. Reclamation will also need to define the new Program.
We provide eight suggestions for improvements that we believe can help Reclamation
officials guide the existing projects, as well as the new Program, to more effectively support
the Bureau’s mission.

Progress on OMB’s First Program Improvement Plan Action: Work to ensure that 
the Administration’s priorities for this program are addressed.  

In its 2002 PART review, OMB indicated that the purpose of the existing projects as a whole
was not clear. While this observation is accurate, the nature of the existing projects
precluded a clear definition of their purpose. To avoid this problem with the new Program
and ensure that the Administration’s priorities are addressed, Reclamation has worked
closely with OMB in creating 43 CFR Part 404 (the interim final rule), which is replete with
programmatic criteria that we believe enable Reclamation’s early involvement in the
planning stages of new rural water projects and better position the Bureau to prioritize the
projects that it recommends to the Congress for construction.

                                                                                                 -5-
The rule encourages competition by allowing an interested entity (to include western States
and Tribes) to request either 1) that Reclamation complete an investigation or study or 2)
financial assistance in the form of a grant-like or cooperative agreement to conduct an
appraisal investigation or feasibility study itself. In addition, an entity that requests financial
assistance must demonstrate that its proposal will be more cost-effective than Reclamation
completing the investigation or study.

Since the process of awarding funding mimics a grant-like activity, similar competitive grant
programs could help the Bureau better assess the impact of the Program’s potential workload
capacity against current manpower levels and devise strategies to overcome projected
deficiencies. Our discussions with Reclamation officials suggest that the Bureau has not
adequately looked to other departmental competitive grant programs for such modeling or
best practices.

                                                                            OIG Suggestion 1:

      Reclamation officials should assess their grant management capacity and develop
                                                       strategies to address deficiences.

Progress on OMB’s Second Program Improvement Plan Action: Focus budgetary 
resources on completing ongoing rural water projects.  

Reclamation has operated as a pass-through (or middle man) for funding of the existing
projects and had no early involvement in
development and design of the existing projects.
Program managers had no ongoing                    Ongoing Rural Water Projects 
administrative oversight authority to protect
                                                            Great Plains Region
Federal investment or minimize escalating
costs. As a result, many of the appraisal and             Montana —
feasibility studies failed to meet Reclamation                Fort Peck/Dry Prairie
standards and Reclamation was unable to                       North Central Montana
prioritize projects or effectively plan and budget
for ongoing projects.                                     North Dakota —
                                                                    Garrison (unit of Pick-Sloane)
Currently, seven projects remain in various                     South Dakota —
states of completion. As required by the Act,                       Mni Wiconi
Reclamation is assessing the status of these                        Lewis and Clark
projects and was expected to submit its findings                    Perkins County
to the Congress in December of 2008. That
report however, has been delayed and is now                     Upper Colorado Region
expected to be submitted to Congress in early                   New Mexico—
2009. With this information, the Congress can                       Jicarilla
act to complete the unfinished projects, the
delay of which could cause incalculable harm to                     Source: Reclamation
the lives and health of countless residents.

                                                                                                      -6-
Our conversations with Reclamation officials suggest that if the existing projects had been
fully funded, most, if not all, could have been completed in half the time. In fact, because of
the piecemeal authorization of individual rural water supply project development, some
residents have waited as much as 20 years or more for access to clean and safe drinking
water. We discuss one such project, the Mni Wiconi Rural Water Project, in detail below.

Mni Wiconi and the Impact of the Rural Water Projects

The existing projects have, over time, improved water quality and availability. As a direct
result, thousands of rural residents now have safe drinking water and are destined to live
longer and healthier lives. One case in point is the Mni Wiconi Project. Its name means
“water is life,” and it has surpassed Environmental Protection Agency (EPA) standards for
drinking water quality.

Authorized by the Mni Wiconi Project Act of 1988, the Project includes some 4,400 miles of
pipeline in newly constructed systems and appurtenant facilities in 40 existing community
systems. At full development, it is projected to serve about 52,000 people. The Project area
extends from the central part of South Dakota to the southwest corner of the State, spans
approximately 12,500 square miles, and includes the Pine Ridge Indian Reservation.

Prior to the Project’s construction, many of the residents in southern South Dakota suffered
serious health problems related to drinking contaminated water. A 1999 U.S. Geological
Survey Report on water quality from selected springs located on the Pine Ridge Reservation
documented high levels of ground water contaminates. Some of the spring water contained
arsenic, naturally occurring radioactive materials, bacteria, and viruses. Consequently,
residents exposed to the contaminants
suffered higher rates of illness and
death than the rest of the national
population. In response to these
health-related issues, Reclamation
worked with the Bureau of Indian
Affairs (BIA) and Indian Health
Service (IHS) to install pipelines, drill
new wells, and equip homes with
proper water filtration systems.

Although originally scheduled for
completion by 2003, this Project is
currently in its 15th year of
construction because insufficient
funding has resulted in repeated
delays. In 2002, the Congress
amended the Mni Wiconi Project Act                The Mni Wiconi Rural Water Supply Project
to extend its sunset date to 2008 and                       Source: Reclamation
to authorize an additional $58.8


                                                                                                  -7-
million to cover costs not considered in the original authorization. The Congress also
authorized administrative costs for a 5-year period. Since the Project was not completed by
the amended date of 2008, its sunset date has been extended again, this time to 2013.

The current Federal cost ceiling for the project is $457.9 million with a corresponding non-
Federal cost-share of $17.5 million. As of September 30, 2008, the Mni Wiconi Project has
spent 81 percent of its total funding. With indexing at 5 percent per year, Reclamation
estimates the Mni Wiconi Project will actually require approximately $23 million each year
from 2008 until 2013 if it is to reach completion. Reclamation requested $16.2 million for
FY 2009, or $6.8 million less than the projected amount required to complete the project on
time. Table 2 below shows Federal funds appropriated and requested for the Mni Wiconi
Project.

Table 1. Funding in thousands of dollars for the Mni Wiconi Rural Water Project
                                  FY 2007                      FY 2008                FY 2009 Request 

Construction                        28,704                      28,197                      16,240 

OM&R Program4                       9,262                       9,374                       10,000 

Total                               37,966                      37,571                      26,240 


                                                                                    OIG Suggestion 2:

           Reclamation officials should continue to work with the Department to ensure it
    includes adequate funding in its future budget requests so that all existing projects are
                                                            completed in a timely manner.

Progress on OMB’s Third Program Improvement Plan Action: Include 
programmatic goals with measurable objectives and outcomes within DOI’s 
Strategic Plan for the Rural Water Supply Program.  

The disjointed nature of existing projects, authorized and developed as individual projects
rather than as part of a coherent program, contributed directly to Reclamation’s hesitance in
developing adequate performance measures. While Program officials are of the opinion that
Reclamation acts only as a pass-through for funding, the Bureau does actively enter into
cooperative agreements with project partners for the purpose of providing funds for the
planning, designing, constructing, operating, maintaining, and replacing, or upgrading of
existing rural water projects. Such agreements delineate the responsibilities for Reclamation,
as well as the partners. Therefore, we believe that oversight responsibility, as well as good

4
  Per statute, the Secretary of the Interior (Reclamation) is responsible for operation, maintenance, and
replacement (OM&R) of the Tribal rural water system facilities. Facilities include those built under the
construction project and those transferred into the OM&R Program. The WR/LJ system OM&R is a non-
Federal cost.


                                                                                                            -8-
stewardship of public funds, resides with Reclamation. As such, accountability ultimately
rests with the Program managers, who should monitor the work of project partners.


                                                                        OIG Suggestion 3:

           Reclamation officials should establish performance standards for each of its
                                                                   Program partners.


We also noted a lack of effective coordination between Reclamation and OMB in the
development of acceptable performance measures. A few years ago, Reclamation proposed
performance measures to OMB, but did not follow up by providing baseline data for OMB’s
review.

To address this issue, we held discussions with the OMB examiner, DOI’s Office of Planning
and Performance Management (PPP) personnel, and Bureau Program personnel with the
expectation of developing mutually acceptable long-term outcome, output, and efficiency
performance measures. The OMB examiner indicated that the Program’s long-term and
intermediate performance measures should reflect Program outcomes, not just outputs, and
be broad enough to encompass both the existing projects and the new Projects. The examiner
also indicated that acceptable measures should demonstrate the effectiveness of the
Program’s selection criteria, as outlined in 73 FR 67778. We believe that the measures can
do this by capturing the influence of the appraisal investigation and feasibility studies on the
planning process and budget development.

After consultation with Reclamation’s Program officials, the OMB examiners, and PPP
personnel, five draft measures have been developed for the Bureau’s consideration (see
Appendix E). Although the measures are a significant step in linking the planning and
oversight functions with the achievement of Reclamation’s long-term outcome goal of
delivering safe drinking water in an environmentally responsible and cost-effective manner,
the measures have not been finalized. In the opinions of the OMB examiner and the PPP
representative, the measures need fine-tuning before OMB concurrence can be obtained.

Once finalized, we believe the proposed measures will capture the progress made toward
development of regional office-level implementation strategies; maintenance and ongoing
evaluation of cooperative agreements; and continuing and effective consultation with project
sponsors and stakeholders. If the Bureau chooses to accept or modify these proposed
measures and OMB concurs, the next step would be gathering of baseline data, and tier the
measures down to manager’s performance plans.

Other measures Reclamation may wish to consider as appropriate and necessary include:




                                                                                                   -9-
       Number of water connections per million dollars - quantifies the costs of the
       services provided to a given community and
       provides a measure of the overall efficiency of    Because it is not a formal
       delivery.                                           program but rather a
                                                               collection of individually
       Quantity of potable water delivered per                    authorized projects,
       million dollars – quantifies both gross and net           Reclamation has not
       costs for projects with a cost-share component.          established measurable
                                                              program goals or a strategic
       Quantity of water treated to EPA drinking                 plan for rural water.
       water quality standards per million dollars -
       similar to the water delivery measure, this also         Source: ExpectMore.gov
       quantifies both gross and net costs.

       Cubic Feet per Second (CFS) of conveyance constructed, or completed -
       quantifies the pipeline constructed or completed for systematic flow or transfer of
       water from one point to another.


                                                                        OIG Suggestion 4:

   Reclamation officials should make establishing performance measures and baseline
  data a priority for old and new projects; establish ambitious targets; link these targets
       to managers’ performance plans; and document data collection and verification.



            ADDITIONAL OPPORTUNITIES FOR IMPROVEMENT

Our review recognizes that organizations can and do take on a variety of structures with
varying degrees of success. We believe that the organizational structure of Reclamation is
appropriate for its customer-driven mission to deliver safe and reliable drinking water.
Nevertheless, we also believe that, as with all organizations, opportunities exist to improve.

Although the lack of acceptable performance measures ultimately triggered OMB’s
designation of the Program as RND, several areas exist that Program officials could explore
to improve existing project and Program operations. We identified partnership efforts,
independent evaluation, budget development, and benchmarking as areas that offer the
opportunities for improvement. We briefly address each below.

PARTNERSHIP EFFORTS

Partnership and stakeholder relationships have proven beneficial in creating a more informed
constituency, assisting with the O&M of existing projects, planning future projects, and, most
importantly, enabling the Bureau to pool resources while developing and improving the

                                                                                                 - 10 -
working relationships among project partners. For example, from our interviews with the
Mni Wiconi Rural Water Project partners (West River/Lyman Jones Rural Water Systems
and Lower Brule, Rosebud, and Oglala Sioux Indian Reservations) all agree that
Reclamation’s leadership has been instrumental in moving the Project forward and, thereby,
ensuring that the long-term goal of providing safe, clean drinking water to the residents of
rural South Dakota becomes a reality.

One way to ensure the success of partnerships entails making information readily available
regarding processes and practices, both in general and for specific projects and related
activities. Reclamation is actively taking the initiative of notifying its stakeholders, as well
as the general public, of 43 CFR Part 404 requirements — as evidenced on its Web site. The
site includes a link to the new Rural Water Supply Program and provides information on the
rule, the Act, public meeting dates and locations, and Program points of contact. The Bureau
is also developing a formal, systematic outreach effort. Until recently, however, it had been
relying on opportunities such as regional meetings or national conferences to convey
information.

We applaud the Bureau’s efforts and believe that a systematic and formalized effort of
notification to increase public awareness and reduce confusion is necessary and vital to:

         enhance communication and collaboration with interested groups;

         foster a sense of stewardship in the management of rural water projects; and

         support local communities in rural water development initiatives.


                                                                               OIG Suggestion 5:

       Reclamation officials should continue to develop and implement effective outreach
    strategies with regard to 43 CFR 404 requirements for the 17 western States that may
                                                     be involved in future water projects.


INDEPENDENT EVALUATIONS
Our review indicated that independent evaluations have primarily consisted of Single Audit5,
Government Accountability Office (GAO)6, and OIG7 reports. These reports have proven
useful in identifying shortfalls and discrepancies in funding. We believe, however, that they

5
  Joseph Eve (CPA), Billings, MT: Rosebud Sioux Tribe, Financial and Compliance Audit Report, Year Ended
September 30, 2006.
6
  GAO: Four Federal Agencies Provide Funding for Rural Water Supply and Wastewater Projects, GAO-07-
1094 (Washington, D.C.: Sep. 2007).
7
  Department of the Interior Inspector General Report: Audit Report on the Lower Brule Sioux Rural Water
System, Mni Wiconi Rural Water Supply Project, BOR, (No. 99-I-588).

                                                                                                           - 11 -
fall short of identifying whether the program
is performing in an effective and efficient
manner. Further, we believe that the scopes of              PART QUESTION 4.5
single audits are insufficient to satisfy the
specific PART requirements, especially in            Do independent evaluations of this
light of the absence of any performance              program indicate that the program
measures.                                             is effective and achieving results?

Third party evaluations can validate                       Source: ExpectMore.gov
monitoring efforts, capture information about
impact on targeted outcomes, and provide
officials with information needed to improve operational efficiencies. Ideally, these
evaluations should be performed at the program level and focus on more than process
indicators, such as the number of grants provided or the number of hits on a Web site. For
example, a significant aspect of the Rural Water Supply Program’s effectiveness would be its
overall impact on the health and welfare of the end user.

                                                                         OIG Suggestion 6:

Reclamation should implement a policy that would allow an independent evaluation of
  the Program on a regular, recurring basis. Such evaluations should be of sufficient
            quality, scope, and frequency so as to provide sufficient information on the
    effectiveness of the entire Program, rather than just certain aspects or select sites.
        Funding for such evaluations should also be budgeted for when they are due.

BUDGET DEVELOPMENT
During the 2002 PART review, Reclamation was critiqued for not adequately demonstrating
that it was budgeting for the full costs associated with operating the existing projects in a way
that allowed performance changes to be identified with changes in the level of funding.
Considering that, at that time, the existing projects were funded through congressional
mandates, this assessment is not surprising.

We found that Program officials recognize the importance of tying funding for these new
                                                       projects to policies and procedures,
              PART QUESTION 3.5                        especially with regard to appraisal
                                                       investigations and feasibility
   Does the agency estimate and budget for the         studies. In addition, our discussions
    full annual costs of operating the Program         with Program officials suggest that
      (including all administrative costs and          they have a clear understanding of
       allocated overhead) so that Program             the importance of considering
     performance changes are identified with           priorities established by the
            changes in funding levels?                 Congress, DOI, and Reclamation
                                                       management, as well as workload
              Source: ExpectMore.gov                   estimates during their budget
                                                       development and allocation process.

                                                                                                    - 12 -
With publication of the interim final rule, we believe that Reclamation officials now have
greater control over new project funding and should be able to refine their development of
long-range budget and workload projections;
prioritize project needs through development              PART QUESTION 3.CAP3
of credible cost benefit analyses; shift
resources, as appropriate, to achieve critical      Has the program conducted a recent,
milestones; adjust deadlines or other                 credible, cost benefit analysis that
objectives; and postpone project starts until                shows a net benefit?
resources become available. The new
process should also allow Reclamation and                   PART QUESTION 4.3
Program officials to prioritize the work to be
performed and to determine when it will be              Does the program demonstrate
performed, what the consequences are of the              improved efficiencies or cost
choices being made, where backlogs are               effectiveness in achieving program
likely to occur, and what issues might arise.                  goals each year?
Furthermore, we believe that the interim final              Source: ExpectMore.gov
rule provides a foundation for a structured
project review process that Reclamation can
use to institute effective Program oversight. The depth of the process can be tailored to be
consistent with the associated costs and inherent risks of any given project. This should
allow Program officials to better demonstrate cost effectiveness in achieving their
programmatic goals.

                                                                       OIG Suggestion 7:

    Reclamation should establish a structured review process that ensures effective cost
       oversight mechanisms are in place from project inception through construction.


BENCHMARKING
In 2002, OMB scored Reclamation’s comparison with managed rural water supply projects
that have a similar purpose and goals as ‘small extent.’ The examiner evaluated the projects
using two primary measures: water connections per million dollars and populations served
per million dollars. The OMB examiner noted that Reclamation’s existing projects serve a
large number of customers at a higher cost than the other Federal rural water supply
programs such as the Department of Agriculture’s Rural Utility Services (RUS), which
makes accurate Program performance comparisons difficult.

In our discussions with Reclamation officials, the issue of benchmarking and comparisons
with projects and programs of similar size and purpose was downplayed as being non-
consequential. Reclamation officials deemed the rural water supply projects to be unique,
which would make comparisons impossible. In support of their argument, officials directed
us to a September 2007 report titled “Action Item 31, Benchmarking Operation and

                                                                                               - 13 -
Maintenance of Water Storage Facilities” that
identified Reclamation’s progress in                          PART QUESTION 4.4
implementing benchmark measures for its water
O&M programs. Although this report does not               Does the performance of this
specifically address rural water supply programs,        program compare favorably to
it suggests that Reclamation should not pursue            other programs with similar
water benchmarking of O&M with outside                        purpose and goals?
entities or of water conveyance and distribution
facilities due primarily to the “lack of                     Source: ExpectMore.gov
standardized cost accounting procedures.”

We disagree with the report’s assumptions and believe Reclamation can conduct effective
benchmarking, albeit on a narrow basis, by focusing on discrete segments of rural water
supply operations. Generally, the broader the scope of the measure, the more difficult it
becomes to align specific measures for comparability. In this case, national, regional, and
local water works associations and organizations provide a number of potentially useful
benchmarks that Reclamation could consider. Key areas at the program level include
customer relations, organizational development, business operations, and water operations.
Key areas at the project level may include:

       Disruption of Water Service Rate per 1,000 Customers Planned/Unplanned —
       quantifies the number of customers experiencing service disruptions.

       Debt Ratio — a measure of the utility’s indebtedness.

       Employee Health and Safety Severity Rate — quantifies the rate of employee days
       lost from work to illness or injury.

       Planned Maintenance Ratio (Water) — measures how effectively utilities are
       investing in planned maintenance. Two ratios for consideration are cost invested in
       maintenance activities and hours invested in maintenance activities.

       Water Distribution System Integrity — quantifies the condition of the water
       distribution system with the number of breaks and leaks requiring repair per 100
       miles of distribution piping.

       Drinking Water Compliance Rate (% days) — reports the percentage of time each
       year that a water utility meets all of the health-related drinking water standards in the
       U.S. National Primary Drinking Water Regulations.

Obtaining comparable benchmarks could help Reclamation produce tangible, quantifiable
targets and goals that could be measured in a consistent fashion over recurring time periods.
In turn, Reclamation management could determine where the Program and individual



                                                                                                   - 14 -
projects are positioned today and measure performance against future goals so that actions
can be modified accordingly.


                                                                        OIG Suggestion 8:

Reclamation should become familiar with other rural water supply programs of similar
size, purpose, and goals, either public or private, to measure, understand, and adopt the
                                                                 industries’ best practices.



                                        SUMMARY

O     ur review resulted from a departmental request to determine the progress Reclamation
      has made in implementing OMB’s 2002 PART recommendations. We have noted that
the primary reason for Reclamation’s poor performance during the 2002 review was directly
attributable to its lack of sufficient performance measures and the lack of a defined program.

During our review we worked closely with Reclamation officials, the department’s Office of
Planning and Performance Management (PPP), and the OMB examiner to develop new
mutually acceptable measures. Although the measures are not yet finalized, we believe that
the necessary communication among PPP, Reclamation, and OMB has been established and
that progress has been made in defining a set of measures that will help the Bureau to
effectively demonstrate the link from planning to implementation and then to results. Once
agreement has been reached on the measures, Program officials can establish performance
baselines and targets. We also identified areas that Program officials are currently
addressing, such as working with partners, achieving cost efficiencies, and developing a
monitoring strategy through independent evaluations and benchmarking.

Publication of 73 FR 67778 (November 17, 2008), which clearly identifies oversight
responsibilities for the Program, is a good first step. Central oversight of the development,
approval, and evaluation of the Program’s performance should ultimately provide a greater
level of accountability and improve management of both the existing projects and the
Program. We encourage you to discuss our suggestions and implement those you agree will
improve Reclamation’s capacity to further its mission.




                                                                                                 - 15 -
                   APPENDIX A: HISTORY AND USE OF THE PART

Planning and performance In 1993, the Congress found federal managers to be “disadvantaged in
           monitoring are their efforts to improve program efficiency and effectiveness, because
          required by law of insufficient articulation of program goals and inadequate
                               information on program performance.” The Government Performance
                               and Results Act (Public Law 103-62), or GPRA, was passed to
                               promote a focus on results by requiring federal agencies to engage in
                               strategic planning and performance reporting.

                               The “President’s Management Agenda,” which includes a U.S.
                               Government-wide initiative to improve budget and performance
                               integration, was published in 2001. The Agenda calls for agencies to
                               monitor program performance and to incorporate performance review
                               into budgetary decision-making.

  Objectives and results of    To support this initiative, the Office of Management and Budget
     federal programs are      (OMB) instituted a new activity within the context of budget
   assessed during budget      formulation. OMB uses a standard questionnaire called the Program
              formulation      Assessment Rating Tool (PART) to engage federal programs in a
                               review of program design, strategic planning, program management,
                               and the achievement of results that demonstrate value for the
                               taxpayer. Through the PART process, OMB rates programs as
                               Effective, Moderately Effective, Adequate, or Ineffective.
                               Alternatively, OMB deems programs that are unable to provide
                               reliable performance information (thus precluding assignment of a
                               program rating) Results Not Demonstrated and recommends
                               establishment or improvement of mechanisms for performance
                               measurement.

OMB has found that many Of the 72 DOI programs assessed between 2002 and 2007, OMB
       DOI programs lack rated only 8 programs (11 percent) Effective and placed 16 programs
 performance information (22 percent) in the category Results Not Demonstrated. DOI
                               programs assessed through the PART process reflect over $9 billion
                               dollars in annual budget authority. Approximately one quarter of this
                               spending is associated with programs that lack reliable performance
                               information.




                                                                                                   A-1
                                           Number
                                                        Percent of
        PART Ratings, 2002-2007              of
                                                        Programs
                                          Programs
  Effective                                   8             11
  Moderately Effective                       23             33
  Adequate                                   25             34
  Ineffective                                 0              0
              Results Not Demonstrated       16             22
      TOTAL NUMBER OF PROGRAMS               72            100

PART findings can be used to 1) justify termination or substantial
curtailment of federal programs, 2) support legislative or fiscal
enhancements, or 3) promote management improvements. OMB
publishes PART results on its ExpectMore.gov Web site, together
with recommended improvement actions for every program it has
assessed. Agency officials and program managers are expected to
follow up on these recommendations and to keep OMB, and
ultimately the public, apprised of progress through updates of the
information posted to ExpectMore.gov and through internal
communications. OMB then reassesses programs on schedules
developed in consultation with responsible agencies.




                                                                     A-2
        APPENDIX B: RURAL WATER SUPPLY PROGRAM OPERATIONS

Title I of the Rural Water Supply Program Act is codified in 43 CFR Part 404, which
provides that the Secretary of the Interior develop three sets of criteria within specified
timeframes. Section 103 of the Act requires the promulgation of programmatic eligibility
and prioritization criteria within 1 year of the date of enactment; section 105 requires
criteria for the evaluation of appraisal investigations to be developed within 1 year of the
date of enactment; and section 106 requires the promulgation of criteria for the evaluation
of feasibility studies within 18 months of the date of enactment.

The Act also requires Reclamation to establish comprehensive programmatic criteria,
including prioritization and eligibility criteria, as well as criteria to evaluate both
appraisal and feasibility studies. Part 404 of title 43 specifically defines these criteria and
describes who is eligible to participate in the Program, as well as the types of projects
that are eligible for consideration.

Under the Program, three groups may seek financial and technical assistance to undertake
appraisal investigations and feasibility studies to explore potable water needs and options
for addressing those needs. Applicants may be States or political subdivisions of States,
Indian Tribes, and entities created under State law that have water management authority.

According to 43 CFR Part 404, the types of direct assistance available from Reclamation
under the Program include 1) technical assistance to conduct an appraisal investigation or
feasibility study; 2) financial assistance to enable a non-Federal entity to conduct an
appraisal or feasibility study itself, with Reclamation oversight; and 3) review and
approval of a completed appraisal or feasibility study.

In reviewing an appraisal investigation, Reclamation applies specific criteria to determine
whether a reasonable range of alternatives has been formulated and evaluated. The
Bureau also determines whether any recommendation for further study of one or more
alternatives is clearly supported by the analysis in the appraisal investigation.

Similarly, in reviewing a feasibility study, Reclamation assures that the proposed project
is consistent with the policies and programs of the President. The Bureau applies the
following criteria to evaluate and determine whether to recommend authorization for
construction.

       Degree to which the project meets the prioritization criteria.

       Outcome of the environmental analysis.

       Federal interest in the project exists.

       Feasibility study support of the recommended project.

                                                                                                  B-1
Utilization of these criteria enables Reclamation to ensure that all appraisal and feasibility
studies completed under the Program meet standards — whether the studies are
completed by Reclamation or by a non-Federal entity.

An important part of Reclamation's role in evaluating a feasibility study under the
Program is to consider the non-Federal entity's capability to pay at least 25 percent of the
cost of constructing a rural water supply project. Part 404 of Title 43 has also defined
cost-sharing requirements related to the Program that include non-Federal cost-sharing in
completing appraisal investigations and feasibility studies and in constructing rural water
projects once the Congress authorizes construction. While the Act provides Reclamation
the authority to undertake the appraisal and feasibility studies, it does not provide
authority to undertake construction of water delivery facilities recommended for
development under the Program. Those require a specific act of Congress.




                                                                                                 B-2
 APPENDIX C: PART QUESTIONS THAT ELICITED A “NO” OR “SMALL EXTENT”
                          ANSWER IN 2002

                   STRATEGIC PLANNING AND PROGRAM DESIGN 

PART Question 1.1: Is the program purpose clear?

PART Question 1.5: Is the program optimally designed to address the interest, problem or
                   need?


                              PERFORMANCE MEASURES 

PART Question 2.1: Does the program have a limited number of specific long-term
                   performance measures that focus on outcomes and meaningfully reflect
                   the purpose of the program?

PART Question 2.3: Does the program have a limited number of specific annual performance
                   measures that can demonstrate progress toward achieving the program’s
                   long-term goals?

PART Question 2.4: Does the program have baselines and ambitious targets for its annual
                   measures?

PART Question 4.1: Has the program demonstrated adequate progress in achieving its long-
                   term outcome goal(s)?


                                    BENCHMARKING 

PART Question 4.4: Does the performance of this program compare favorably to other
                   programs with similar purpose and goals?


                                 EFFICIENCY MEASURES 

PART Question 3.CAP3: Has the program conducted a recent, credible, cost benefit analysis
                      that shows a net benefit?

PART Question 4.3: Does the program demonstrate improved efficiencies or cost effectiveness
                   in achieving program goals each year?




                                                                                            C-1
                             INDEPENDENT EVALUATIONS 

PART Question 4.5: Do independent evaluations of sufficient scope and quality indicate that
                   the program is effective and achieving results?

                                BUDGET DEVELOPMENT 


PART Question 3.5: Does the agency estimate and budget for the full annual costs of operating
                   the program (including all administrative costs and allocated overhead) so
                   that program performance changes are identified with changes in funding
                   levels?




                                                                                              C-2
      APPENDIX D: STATUS OF RURAL WATER SUPPLY PROJECTS
                                         
                                             Date Project    Project
                 Project Name
                                             Authorized     Completed
1.a      Garrison Diversion Unit – State     5/12/1986        NO

1.b      Garrison Diversion Unit – Tribal    10/20/1992       NO

2       Mni Wiconi Rural Water Systems       10/24/1988       NO

3      Lewis and Clark Rural Water System    7/13/2000        NO

4          Perkins Rural Water System        12/7/1999        NO

5       Ft. Peck Reservation – Dry Prairie   10/27/2000       NO

6          North Central/Rocky Boys          12/13/2002       NO

7       Jicarilla (Upper Colorado Region)    7/10/2000        NO

8                  Mid-Dakota                10/30/1992       YES

9                Ft. Peck County             10/11/1996       YES
           WEB Project (Walworth,
10                                            9/24/1980       YES
         Edmunds, and Brown counties)




                                                                        D-1
APPENDIX E: PROPOSED RURAL WATER SUPPLY PERFORMANCE MEASURES

                 Type                                 Performance Measures8

                             Percent of applications evaluated by Reclamation within the time
    1           Output
                             frames contained in Reclamation’s Directives and Standards.

                             Percent of appraisal studies conducted by Reclamation or non-
    2           Output       Federal project sponsors with cost and schedule variance of less
                             than 10% from the approved annual project plan.

                             Percent of feasibility studies conducted by Reclamation or non-
    3           Output       Federal project sponsors with cost and schedule variance of less
                             than 10% from the approved annual project plan.

                             Percent of targeted populations served with reliable, safe drinking
    4         Outcome        water from the rural water projects under construction by project
                             sponsors.
                             Percent of non-Federal project sponsor-managed rural water
    5         Outcome        construction projects with cost and schedule variance of less than
                             10% from the approved annual master plan.




8
  Based on the feedback received from PPP and OMB, the performance measures will need to more closely
track costs in order to demonstrate efficiency and show improvements. With minor revisions PPP feels the
first measure will work. Furthermore, PPP and OMB indicated that 2, 3, and 4 as written are amalgams of
measures needing to be broken out and ideally should cover the entire program. The percentage of targeted
population served with reliable, safe drinking water from rural water projects (measure 5) can stand alone.


                                                                                                              E-1
                     APPENDIX F:  FY 2009 BUDGET REQUEST 

For FY 2009, Reclamation’s budget request includes $39 million in funding for two
existing and ongoing authorized rural water supply projects within the Great Plains
Region — the Garrison Diversion Unit in North Dakota and the Mni Wiconi Project in
South Dakota. Of the $39 million, $24 million is requested to complete construction of
these systems. The remaining $15 million is slated for O&M functions. For the
construction component, Reclamation is allocating funding based on objective criteria,
giving priority to projects nearest to completion and projects that serve Tribal needs.

For the Mni Wiconi Project, funds have been requested for design and construction
activities on the Oglala Sioux and Rosebud Sioux Indian Reservations and the West
River and Lyman-Jones (WRLJ) Rural Water Systems, as well as for the O&M of new
and existing facilities on the Indian Reservations. For the Garrison Diversion Unit, funds
have been requested for 1) grants to the State of North Dakota for municipal, rural, and
industrial (MR&I) water projects; 2) development of Indian MR&I water and irrigation
facilities; and 3) O&M of completed project facilities. We summarize the budget
requests for these rural water supply projects in the table below.

         Rural Water Supply Projects Budget Summary ($ in thousands)
                                         FY 2009 Budget      Change from FY
  FY 2007 Actual    FY 2008 Enacted
                                             Request            2008 (+/-)


       80,776                 140,558                 39,015                -101,543


To implement the Program, the Administration has also requested $1 million to help non-
Federal entities conduct appraisal investigations. The assistance is to be provided on a
competitive basis, in accordance with the programmatic criteria defined in 43 CFR 404.
At this funding level, Reclamation anticipates that it would be able to support the funding
for up to five appraisal investigations at a maximum of $200,000 each.




                                                                                              F-1
  Report Fraud, Waste, Abuse ,
     and Mismanagement
           Fraud, waste, and abuse in government
           concerns everyone: Office of Inspector
           General staff, Departmental employees,
             and the general public. We actively
           solicit allegations of any inefficient and
             wastef ul practices, fraud, and abuse
           related to Departmental or Insular Area
          programs and operations. You can report
              allegations to us in several ways.




By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW
                   Washington, D.C. 20240

By Phone:          24-Hour Toll Free            800-424-5081
                   Washington Metro Area        703-487-5435

By Fax:            703-487-5402

By Internet:       www. doioig.gov /hotline




                                
